Report No. D-2009-112                September 25, 2009




                 Deferred Maintenance on
                the Air Force C-130 Aircraft
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or to request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AETC                          Air Education and Training Command
AFMC                          Air Force Materiel Command
AFRC                          Air Force Reserve Command
AFTO                          Air Force Technical Order
AIRCAT                        Automated Inspection Repair and Corrosion Aircraft
                                  Tracking System
ALC                           Air Logistics Center
AMC                           Air Mobility Command
ANG                           Air National Guard
FMR                           Financial Management Regulation
OMB                           Office of Management and Budget
PDM                           Programmed Depot Maintenance
PM/CCAT                       Program Management Configuration Control Aircraft
                                  Tracking System
RSI                           Required Supplementary Information
SAF/FM                        Assistant Secretary of the Air Force for Financial
                                  Management
SFFAS                         Statement of Federal Financial Accounting Standards
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                       September 25, 2009

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Deferred Maintenance on the Air Force C-130 Aircraft
         (Report No. D-2009-112)

We are providing this report for review and comment. We considered comments from
the Office of Resource Integration, Deputy Chief of Staff for Logistics, Installations and
Mission Support when preparing the final report. We performed this audit pursuant to
the requirements in Public Law 100-181, the FY 2008 National Defense Authorization,
Section 842.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments on Recommendation B.2 were responsive, and no further comments are
required. The comments on Recommendations A.l .a, A.l.d, A.l.e and B.l were
responsive. The comments on Recommendations A.l.b and A.l.c were not responsive.
We request that Air Force Materiel Command provide additional information on
Recommendations A.1.a, A.l.d and comments on Recommendations A.l. b, A.l .c, and
A.I.e by October 25,2009. We request the Office of Resource Integration provide
additional information on Recommendation B.1 by October 25,2009.

Please provide comments that confirm to the requirements of DOD Directive 7650.3. If
possible, send management comments in electronic format (Adobe Acrobat file only) to
auddbo@dodig.mil. Copies of management comments must have the actual signature of
the authorizing official for your organization. We cannot accept the / Signed / symbol in
place of the actual signature. If you arrange to send classified comments electronically,
you must send over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8901 (DSN 664-8901).



                                 '----14iL . ~{JAA . fL
                                     J1;1V;lne ~v'-'-
                                Deputy Inspector General
                                      for Auditing
Report No. D-2009-112 (Project No. D2008-D000FH-0225.000)                                  September 25, 2009


                Results in Brief: Deferred Maintenance on
                the Air Force C-130 Aircraft

What We Did                                                 Implementing our recommendations would help
                                                            resolve the internal control weaknesses in the AFMC
We determined the extent and causes of deferred             process for deferring C-130 aircraft PDM and in
maintenance on the U.S. Air Force C-130 aircraft            accurately reporting the amount of deferred
used in support of operations in Southwest Asia.            maintenance in the financial statements.
Specifically, we assessed the Air Force Materiel
Command (AFMC) procedures for reporting
deferred maintenance on the C-130 aircraft. We              What We Recommend
focused on maintenance deferred from October 1,             AFMC should:
2004, through August 1, 2008.
                                                               develop and implement procedures to improve
                                                                the C-130 aircraft PDM scheduling process;
What We Found                                                  determine why it did not obtain, review, and
AFMC did not have an adequate internal control                  retain PDM extension documents;
process for managing deferred C-130 aircraft                   identify any C-130 aircraft flying without the
Programmed Depot Maintenance (PDM).                             required PDM extension and complete the
Specifically, AFMC did not ensure that:                         necessary action to resolve; and
                                                               provide proper oversight for partially deferred
   PDM was performed by the scheduled date,                    maintenance and report partially deferred
   C-130 aircraft obtained and retained the required           maintenance.
    PDM extensions, and
   a reliable process was in place for reviewing           The Department of the Air Force should:
    PDM extensions.
                                                               report updated deferred maintenance
In addition, partially deferred maintenance was not             requirement changes identified by the
accurately recorded and reported. AFMC process                  Major Commands; and
for deferring PDM was inadequate because AFMC                  verify the accuracy and validity of deferred
either did not have procedures or did not follow                maintenance amounts reported in the Required
established procedures to comply with Federal and               Supplementary Information in the financial
DOD regulations and Air Force instructions,                     statements.
including Air Force Technical Orders 00-25-107 and
00-25-4. As a result, the Air Force may have flown
36 C-130 aircraft that were considered unsafe and 11
                                                            Management Comments and
of these may have flown over the course of 365 days         Our Response
or more.                                                    The Deputy Director of Resource Integration,
For FYs 2005-2007, the Air Force reported                   Deputy Chief of Staff for Logistics, Installations and
approximately $135.45 million in C-130 aircraft             Mission Support agreed with all of the
deferred maintenance. However, that amount was              recommendations. The Deputy Director’s proposed
unreliable because the Air Force did not validate its       actions were responsive for five recommendations
maintenance requirements at the end of the fiscal           and nonresponsive for two recommendations.
year. Thus, the Air Force did not comply with               However, we request additional information or
established guidance. As a result, the Air Force            comments on six recommendations by October 25,
inaccurately reported deferred maintenance for the          2009. Please see recommendations table on the back
C-130 aircraft in the Required Supplementary                of this page.
Information of the FYs 2005-2007 financial
statements.

                                                        i
Report No. D-2009-112 (Project No. D2008-D000FH-0225.000)                               September 25, 2009

Recommendations Table

Management                                Recommendations                     No Additional Comments
                                          Requiring Comment                   Required
Commander, Air Force Materiel             A.1.a, A.1.b, A.1.c, A.1.d,
Command                                   A.1.e
Assistant Secretary of the Air                                                B.2
Force for Financial Management
and Comptroller*
Director of Resource Integration,         B.1
Office of the Deputy Chief of
Staff for Logistics, Installation
and Mission Support
* Changed from Principal Deputy Secretary of the Air Force for Financial Management and Controller based on
additional information provided by the Air Force.

Please provide comments by October 25, 2009




                                                      ii
Table of Contents
Introduction                                                             1

      Objective                                                          1
      Background                                                         1
      Review of Internal Controls                                        3

Finding A. C-130 Aircraft Deferred Programmed Depot Maintenance          4

      Management Actions                                                8
      Recommendations, Management Comments, and Our Response            9

Finding B. Financial Reporting of C-130 Aircraft Deferred Maintenance   12

      Recommendations, Management Comments, and Our Response            15

Appendix. Scope and Methodology                                         16
            Prior Coverage                                              16

Glossary                                                                18

Management Comments

      Department of the Air Force                                       19
Introduction
Objective
The objective of the audit was to determine the extent and causes of deferred
maintenance on the Air Force C-130 aircraft used in support of operations in Southwest
Asia. In addition, we evaluated compliance with applicable laws and regulations as they
relate to the audit objective. See the Appendix for a discussion of scope and
methodology and prior coverage. A glossary of technical terms used in this report
follows the Appendix.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits . . . to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.”

Background
For FYs 2005-2007, the Air Force reported approximately $878.91 million in military
equipment deferred maintenance. The C-130 aircraft deferred maintenance accounted for
approximately $135.45 million, or 15.4 percent, of Air Force deferred maintenance. The
C-130 aircraft is a 97-foot, 9-inch-long, four-engine tactical transport aircraft that
generally operates in the role of intratheater airlift. Its missions include aerial refueling,
electronic and psychological warfare, and special operations forces assignments.

Deferred Maintenance Policy
Statement of Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting for
Property, Plant, and Equipment,” November 1995, as amended by SFFAS No. 14,
“Amendments to Deferred Maintenance Reporting,” April 1999, defines maintenance as
the act of keeping fixed assets in acceptable condition. It includes preventative
maintenance, normal repairs, replacement of parts and structural components, and other
activities needed to preserve the asset so that it continues to provide acceptable services
and achieves its expected life. The standard states that maintenance is often underfunded
and the consequences are not immediately reported. However, the consequences include
increased safety hazards, poor service to the public, higher costs in the future, and
inefficient operations. In addition, the Air Force Instruction 21-101, “Aircraft and
Equipment Maintenance Management,” June 29, 2006, states that regular maintenance
and repair is necessary to keep Air Force aircraft at optimum availability.

SFFAS No. 6 defines deferred maintenance as maintenance that was not performed when
it should have been or when scheduled to be and which, therefore, is put off or delayed.


                                              1
The standard also states that deferred maintenance information related to the condition
and the estimated costs to remedy deferred maintenance on property, plant, and
equipment is to be reported as Required Supplementary Information (RSI) in the financial
statements. In addition, the DOD Financial Management Regulation (FMR),
Volume 4, Chapter 6, “Property, Plant, and Equipment,” October 2008, 1 states that
DOD Components must report deferred maintenance on property, plant, and equipment
in the RSI if the deferred maintenance amounts have a cost that equals or exceeds the
DOD capitalization threshold.

The Air Force Technical Order (AFTO) 00-25-4, “Depot Maintenance of Aerospace
Vehicles and Training Equipment,” April 1, 2006, states that depot maintenance will be
scheduled to allow for the programming of funds, material, personnel, facilities, and other
resources. In addition, AFTO 00-25-4 establishes the Air Force’s C-130 aircraft
Programmed Depot Maintenance (PDM) cycle requirement based on the mission design
series and owning Major Command. Further, the AFTO states that the Maintenance
Requirements Review Board 2 is responsible for evaluating and scheduling all valid
depot-level requirements for an appropriate program.

Air Logistics Centers
The Air Force performs noncontract (organic) PDM on its C-130 aircraft at Warner
Robins Air Logistics Center (ALC) at Robins Air Force Base, Georgia, Ogden ALC at
Hill Air Force Base, Utah, and Aerospace Maintenance and Regeneration Group at
Davis-Monthan Air Force Base, Arizona. In addition, the Air Force has two contractors
that perform PDM on the C-130 aircraft.

The Warner Robins ALC, operated by the Air Force Materiel Command (AFMC),
provides product support, purchasing and supply-chain management, and depot
maintenance. The mission of the Warner Robins ALC includes system management and
engineering responsibility for various types of equipment, including the C-130 aircraft.
In addition, the System Program Office for the C-130 aircraft is located at
Warner Robins ALC and is responsible for engineering, worldwide logistics, weapon
system readiness, and wartime support. The C-130 System Program Office also manages
aircraft overhaul, modernization and modification programs, and unscheduled depot-level
maintenance for the C-130 aircraft.

The Ogden ALC provides worldwide logistics management, engineering, modification,
and depot maintenance. The Ogden ALC also provides depot-level maintenance, repair,
and overhaul for the Air Force C-130 aircraft. The C-130 System Program Office directs
the C-130 aircraft workload at Ogden ALC.


1
  The DOD FMR was updated June 2009; however, we used the October 2008 version because our
fieldwork phase was before June 2009. In addition, the portions of the DOD FMR used for this audit were
not changed.
2
  Starting FY 2008, the Air Force replaced the Maintenance Requirements Review Board with the Aircraft
and Missile Requirements Database process; however, the Air Force instructions are not updated to reflect
the change.


                                                    2
Review of Internal Controls
We determined that internal control weaknesses in the Air Force deferred maintenance
process existed as defined by DOD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. The AFMC internal control process for
deferring C-130 aircraft PDM was inadequate. Implementing Recommendations A.1.a,
A.1.d, and A.1.e would improve the AFMC’s procedures for deferring C-130 aircraft
PDM.

In addition, the Air Force did not have internal controls to accurately report the amount of
deferred maintenance for the C-130 aircraft in its financial statements. Implementing
Recommendations B.1 and B.2 would improve the Air Force’s procedures for reporting
the deferred maintenance of the C-130 aircraft in the Air Force’s financial statements.
We will provide a copy of the report to the senior official responsible for internal controls
in the Air Force.




                                             3
Finding A. C-130 Aircraft Deferred
Programmed Depot Maintenance
AFMC did not have an adequate internal control process for managing deferred
C-130 aircraft PDM. Specifically, AFMC did not ensure that:

      PDM was performed by the scheduled date;
      C-130 aircraft obtained and retained the required PDM extensions; and
      a reliable process was in place for reviewing the PDM extensions.

In addition, partially deferred maintenance was not accurately recorded and was not
reported to the Office of Resource Integration. AFMC’s process for deferring PDM was
inadequate because it either did not have procedures in place or did not follow established
procedures to comply with Federal and DOD regulations and Air Force instructions. As
a result, the Air Force may have flown 36 C-130 aircraft beyond the scheduled PDM
without a written 90-day extension, and 11 of those C-130 aircraft may have flown more
than 365 days. Air Force instructions state that C-130 aircraft that do not receive
scheduled PDM within the 90-day variance are considered unsafe and unserviceable. In
addition, the Major Commands could incur higher maintenance costs, ground part of their
C-130 aircraft fleet, or risk weapon system failure before the next PDM.

C-130 Aircraft Programmed Depot Maintenance
From October 1, 2004, through August 1, 2008, 311 C-130 aircraft arrived for PDM at
AFMC facilities. To schedule PDM for the C-130 aircraft, the C-130 System Program
Office and representatives of the Major Commands annually negotiate the scheduled date
for the C-130 aircraft at the PDM scheduling conference. They communicate throughout
the year to determine whether the aircraft will arrive at the depot on its originally
scheduled date. The Major Commands are responsible for obtaining, reviewing, and
retaining PDM extensions in accordance with applicable Office of Management and
Budget (OMB) and Air Force criteria.

The C-130 System Program Office uses the Program Management Configuration Control
Aircraft Tracking (PM/CCAT) system to track the PDM cycle. Air Force units or Major
Commands use the Automated Inspection Repair and Corrosion Aircraft Tracking
(AIRCAT) system to submit technical assistance requests, such as PDM extensions, to
the engineers for approval or disapproval. The engineers review the technical assistance
request, and in the case of PDM extensions, they either approve or disapprove the
request, which the AIRCAT system retains. According to C-130 System Program Office
personnel, PM/CCAT is not involved with the PDM extensions. Therefore, a
reconciliation of the records in the PM/CCAT and AIRCAT systems would allow the
C-130 System Program Office to determine whether all C-130 aircraft that have exceeded
the PDM cycle have an approved PDM extension on file. However, the C-130 System
Program Office does not reconcile the information in PM/CCAT against the information
in AIRCAT.



                                            4
Programmed Depot Maintenance Cycle
AFMC did not perform PDM for 82 of 311 C-130 aircraft within the required PDM cycle
in accordance with Air Force instructions. AFTO 00-25-4 requires that an aircraft be
inducted a maximum of 90 days after the PDM scheduled date. 3 The C-130 aircraft that
do not arrive by the scheduled date are considered unsafe to fly unless they received a
90-day extension. Table 1 shows the 82 C-130 aircraft that were not inducted by the
scheduled date.

              Table 1. C-130 Aircraft Not Inducted by the Scheduled Date
                 Number of Aircraft With     Days Exceeded the End
                  Deferred Maintenance          of the PDM Cycle*
                                 33                          1 to 30 days
                                 27                         31 to 90 days
                                  7                        91 to 180 days
                                  1                        181 to 365 days
                                 14                       More than 365 days
                                 82                              Total
                 * This column shows the number of days exceeding the 90-day
                 variance allowed by Air Force instructions.

Of the 82 C-130 aircraft, 79 exceeded the PDM cycle because the C-130 aircraft could
not arrive before the 90-day variance allowed after the PDM scheduled date. For
example, a C-130 aircraft was scheduled to receive its PDM at Warner Robins ALC on
October 27, 2006; however, the aircraft was deployed, and the PDM date was moved to
December 27, 2006. In addition, one Major Command deferred the PDM of a
C-130 aircraft for multiple fiscal years because the aircraft were undergoing unscheduled
depot-level maintenance. Furthermore, a C-130 aircraft did not arrive at the depot by the
scheduled date because of funding issues.

Three of the 82 C-130 aircraft arrived before the scheduled date, but they were not
inducted for PDM by the scheduled date. For example, one Air Mobility
Command (AMC) C-130 aircraft arrived at the Ogden ALC by the scheduled date, but
was not inducted until 41 days later. According to Warner Robins ALC personnel,
unscheduled depot-level maintenance prevented the C-130 aircraft from induction by the
scheduled date. As a result of deferring the maintenance to a future period, the risk of
grounding part of the C-130 aircraft fleet increased, reducing the mission-readiness of the
Major Commands.




3
 Induction processing enables work to begin and permits charging work to the project. Upon induction,
work orders are released to the appropriate production locations.


                                                   5
Programmed Depot Maintenance Extension Documents
AFMC did not obtain and retain the required PDM extensions in accordance with
Air Force criteria. AFTO 00-25-4 states that an operating unit may request approval for a
90-day extension beyond the 90-day variance. The Air Force Instruction 21-101 and
AFTO 00-25-107, “Maintenance Assistance,” January 15, 2008, require that Air Force
personnel:

      document the extensions on approved official communication methods, such as
       “Maintenance Assistance” forms, and
      keep all authorized technical data variances with the aircraft or equipment
       historical records until no longer applicable.

For 36 of 79 C-130 aircraft that exceeded the PDM cycle, AFMC did not obtain and
retain the required PDM extension. For example, one C-130 aircraft did not receive its
PDM because there were “facility parking constraints” at Hill Air Force Base.
C-130 System Program Office personnel could not provide the PDM extension document
because either the Major Commands did not request the PDM extension from the
C-130 System Program Office or the schedulers did not reconcile the information in the
AIRCAT system with the PM/CCAT system.

As a result, AFMC did not comply with Air Force Instruction 21-101, AFTO 00-25-107,
and AFTO 00-25-4. Therefore, according to these requirements and the PDM schedule,
the Air Force may have flown 36 C-130 aircraft that were considered unsafe and
unserviceable, and 11 of 36 C-130 aircraft may have flown over the course of 365 days or
more. The C-130 aircraft should have been grounded until a PDM extension was
obtained, the aircraft received the PDM, or the aircraft was retired. Furthermore, we do
not know whether the crews assigned to these C-130 aircraft were aware of the potential
safety risk to the C-130 aircraft. Consequently, AFMC needs to review the process to
determine why it did not obtain, review, and retain the required PDM extensions.

Programmed Depot Maintenance Extension Process
The C-130 System Program Office does not have a reliable process for reviewing PDM
extensions in accordance with OMB Circular A-123, “Management’s Responsibility for
Internal Control,” December 21, 2004, which states that transactions should be authorized
and processed accurately and data should be valid and complete. OMB Circular A-123
also states that periodic reviews, reconciliations, or comparisons of data should be
included as part of the regular assigned duties of personnel. Of the 79 C-130 aircraft that
exceeded the PDM cycle, we received PDM extension documents for 43 C-130 aircraft
from the C-130 System Program Office. For 11 of the 43 C-130 aircraft, we identified
documentation issues. For example, the C-130 System Program Office granted PDM
extensions that:

      retroactively provided extension coverage;
      exceeded the 90-day variance established in AFTO 00-25-4; and
      omitted the reason for requesting the PDM extensions.



                                            6
The PDM extension documents contained errors because the C-130 System Program
Office did not have a reliable process in place to review the information entered into the
AIRCAT system. As a result, the C-130 System Program Office granted PDM
extensions that did not contain accurate information.

Recording and Reporting Partially Deferred Maintenance
For maintenance tasks approved for deferral, an approval waiver containing the
maintenance tasks is recorded and the deferred maintenance tasks are carried forward in
the maintenance records until the task is completed. Because the partially deferred
maintenance tasks meet the SFFAS No. 6 definition of deferred maintenance, they are to
be reported in the RSI of the financial statements in accordance with SFFAS No. 14.
Therefore, AFMC is required to record and report partially deferred maintenance.

We reviewed maintenance documents pertaining to a judgmental sample of
34 of 311 C-130 aircraft. For 16 of 34 C-130 aircraft, AFMC partially deferred
maintenance for 23 tasks. Table 2 shows the maintenance tasks deferred by number of
occurrences.

             Table 2. C-130 Aircraft Partially Deferred Maintenance
      Required Maintenance Task      Reasons for Deferral      Number of
               Deferred                                       Occurrences

      Remove/Replace Rainbow            Lack of parts                       2
      Fittings
      Remove/Replace Truss              Lack of parts                       6
      Mounts
      Vertical Beam Repair Task         Lack of parts                       6
      Other Maintenance Tasks           Limited availability or             9
                                        unavailability of assets;
                                        Waiver of inspection
       Total                                                                23

Recording Partially Deferred Maintenance
AFMC did not record partially deferred maintenance in accordance with the Air Force
instructions. To comply with AFMC Manual 21-1, “Air Force Materiel Command
Technical Order Systems Procedures,” January 15, 2005, the system engineer should
document carry-forward information, such as deferred maintenance tasks, on the
AFMC Form 202 and AFTO Form 95. However, AFMC did not record partially deferred
maintenance for 13 C-130 aircraft.

For example, on an AFMC Form 202 from AMC for one aircraft, AFMC did not record
the partially deferred maintenance in the correct box, and as a result, that information was
not included on AFTO Form 95 “Significant Historical Data.” Because AFMC did not
enforce its policies for recording partially deferred maintenance, it did not provide proper


                                             7
oversight for partially deferred maintenance. As a result, AFMC increased the risk of not
completing the scheduled maintenance during the next PDM cycle and potentially
increasing maintenance cost.

Reporting Partially Deferred Maintenance
AFMC did not report the partially deferred maintenance in accordance with regulations.
SFFAS No. 6 defines deferred maintenance as that which was not performed when it
should have been or was scheduled to be and was delayed. In addition, DOD FMR,
Volume 6B, Chapter 12, “Required Supplementary Information,” September 2008, states
that the deferred maintenance methodology used to develop the OP-30 Budget Exhibit
should be the basis for reporting deferred maintenance. AFMC did not report to the
Office of Resource Integration partially deferred maintenance, which met the SFFAS
No. 6 and DOD FMR requirements, for 16 of 34 C-130 aircraft.

AFMC did not report partially deferred maintenance because the Air Force only
considers either unfunded scheduled maintenance or nondelivery of a C-130 aircraft to
the depot as deferred maintenance. According to personnel from the Office of Resource
Integration, the Air Force does not consider the funded maintenance that was scheduled
but deferred as deferred maintenance. As a result, AFMC did not report the funded PDM
that was scheduled but deferred to the Office of Resource Integration for inclusion into
the RSI of the financial statements.

Management Actions
The depots are conducting pilot programs to reduce the time between scheduling and
performing depot maintenance, thereby increasing aircraft availability. Specifically,
Warner Robins ALC is implementing a High Velocity Maintenance System and the
Ogden ALC was developing a process improvement plan for C-130 aircraft maintenance.
Each initiative is ALC-specific, and AFMC has established a High Velocity Maintenance
Office to develop guidance for the ALCs.

Summary
The AFMC internal control process for deferring PDM for the C-130 aircraft was
inadequate. AFMC did not perform the PDM for 82 of 311 C-130 aircraft by the
scheduled date. In addition, AFMC did not obtain and retain the required PDM
extensions for 36 of 79 C-130 aircraft that arrived at the depot outside of their PDM cycle
and were thus considered unsafe to operate. Furthermore, AFMC did not have a reliable
process in place for reviewing the PDM extensions. Lastly, AFMC did not accurately
record partially deferred maintenance for 13 of 34 C-130 aircraft and did not accurately
report partially deferred maintenance for 16 of 34 C-130 aircraft to the Office of
Resource Integration. The internal control weaknesses occurred because AFMC did not
have procedures to comply with Federal and DOD regulations and Air Force instructions.
As a result, the Major Commands could expose themselves to higher maintenance costs,
partially grounding the C-130 aircraft fleet, or weapon system failure.




                                            8
Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Commander, Air Force Materiel Command:

      a. Develop and implement procedures to improve the process for scheduling
Programmed Depot Maintenance.

Management Comments
The Deputy Director of Resource Integration, Deputy Chief of Staff for Logistics,
Installations and Mission Support agreed with the recommendation. The Deputy Director
stated that AFMC would develop and implement procedures to improve the Programmed
Depot Maintenance scheduling process. The Air Force anticipates completing the
implementation of this recommendation by October 2009.

Our Response
The Deputy Director’s comments were responsive. We request that the Air Force
provide a copy of their October 2009 procedures that were developed identifying the
procedures that will improve the PDM scheduling process.

       b. Conduct a review of the process to determine why it did not obtain,
review, and retain the required Programmed Depot Maintenance extensions in
accordance with Air Force Technical Order 00-25-4, Air Force Instruction 21-101,
and Air Force Technical Order 00-25-107.

Management Comments
The Deputy Director of Resource Integration, Deputy Chief of Staff for Logistics,
Installations and Mission Support agreed with the recommendation, stating that AFMC
conducted a review of the process and determined that the AIRCAT system captures the
required information. AFMC recommended we close this recommendation.

Our Response
Although agreeing with the recommendation, the Deputy Director’s comments were not
responsive. The comments should provide us the results of the review on not obtaining,
reviewing, and retaining the PDM extensions in accordance with AFTO 00-25-4,
Air Force Instruction 21-101, and AFTO 00-25-107. In addition, although the Deputy
Director stated that the AIRCAT system tracks the required information, we could not
determine from the comments whether AFMC performed the requested review and
resolved the issues discussed in Finding A of this report.

Further, during the audit we determined that AFMC did not obtain and retain the PDM
extensions for some of the C-130 aircraft, and some PDM extensions provided to us
contained errors. However, the Deputy Director did not identify any corrective actions
AFMC was taking to address the issues. By asking us to close the agreed upon
recommendation and not recognizing the deficiencies identified in the finding, the
Deputy Director is not ensuring that AFMC is complying with the program requirements


                                           9
in our recommendation. We request that the Air Force provide additional comments in
response to the final report, answering why AFMC did not obtain, review, and retain the
required PDM extensions in accordance with AFTO 00-25-4, Air Force Instruction 21-
101, and AFTO 00-25-107.

       c. Identify immediately any C-130 aircraft that are currently flying without
the required Programmed Depot Maintenance extension and either grant the
extension, perform the scheduled maintenance, or ground the C-130 aircraft. The
Commander of the Air Force Materiel Command should also provide a plan of
action within 30 days of the date of this report that implements this
recommendation.

Management Comments
The Deputy Director of Resource Integration, Deputy Chief of Staff for Logistics,
Installations and Mission Support agreed with the recommendation. The Deputy Director
stated that the AIRCAT system now identifies the extension requirements and request
status. AFMC will provide a reminder to Major Commands to properly follow request
procedures. The Air Force anticipates completing the implementation of this
recommendation by September 2009.

Our Response
Although agreeing with the recommendation, the Deputy Director’s comments were not
responsive. The Deputy Director only stated that the AIRCAT system identifies the
extension requirements and request status. The comments did not discuss whether
AFMC identified any C-130 aircraft flying without the required PDM extension or
whether these aircraft received an extension, received scheduled maintenance, or were
grounded. Furthermore, because the Deputy Director’s comments did not discuss
whether AFMC identified the C-130 aircraft that were currently flying without a PDM
extension, the Air Force may be still flying unsafe C-130 aircraft. The Deputy Director’s
comments also did not include a plan of action. Therefore, we ask that the Air Force
provide additional comments in response to the final report, identifying specific
corrective actions the Air Force took to address the recommendation. We also request
that the Commander, AFMC provide a plan of action within 30 days of the date of this
report to address the recommendation.

       d. Enforce existing policy to provide proper oversight for recording partially
deferred maintenance.

Management Comments
The Deputy Director of Resource Integration, Deputy Chief of Staff for Logistics,
Installations and Mission Support agreed with the recommendation, stating that AFMC
would enforce policy and provide proper oversight for partially deferred maintenance.
The Air Force anticipates completing the implementation of this recommendation by
October 2009.




                                           10
Our Response
The Deputy Director’s comments were responsive. However, we ask that AFMC provide
specific actions it would take to enforce existing policy to provide proper oversight for
recording partially deferred maintenance.

       e. Develop and implement procedures to report partially deferred
maintenance to the Office of Resource Integration, Deputy Chief of Staff for
Logistics, Installations and Mission Support for inclusion in the Required
Supplementary Information of the financial statements in accordance with
Statement of Federal Financial Accounting Standard No. 6.

Management Comments
The Deputy Director of Resource Integration, Deputy Chief of Staff for Logistics,
Installations and Mission Support agreed with the recommendation, stating that the Air
Force would develop procedures to properly report deferred maintenance. The Air Force
anticipates completing the implementation of this recommendation by February 2010.

Our Response
The Deputy Director’s comments were responsive. Although the Air Force agreed to
develop procedures to report partially deferred maintenance, the comments did not
address the process for implementing the procedures to report partially deferred
maintenance to the Office of Resource Integration for inclusion in the RSI of the financial
statements. We ask the Air Force to provide additional comments in response to the final
report, identifying the specific actions planned to implement procedures to report
partially deferred maintenance.




                                            11
Finding B. Financial Reporting of C-130
Aircraft Deferred Maintenance
For FYs 2005-2007, the Air Force reported approximately $135.45 million for
C-130 aircraft deferred maintenance. However, that amount was unreliable because the
Air Force did not validate its maintenance requirements at the end of the fiscal year.
Further, the Air Force did not follow established guidance to report accurate deferred
maintenance. As a result, the Air Force inaccurately reported deferred maintenance for
the C-130 aircraft in the RSI of the financial statements for FYs 2005-2007. The DOD
and Air Force management should not rely on the information for making informed
decisions.

Reporting Deferred Maintenance
The Air Force used the OP-30 Budget Exhibit to report deferred maintenance in
FYs 2005-2007. According to the DOD FMR volume 6B, chapter 12, the OP-30 Budget
Exhibit should be used as the basis for reporting deferred maintenance, but that material
amounts of deferred maintenance may exist beyond the scope of the OP-30 Budget
Exhibit and therefore warrant reporting. Table 3 shows the $135.45 million in deferred
maintenance the Air Force reported for FYs 2005-2007.

 Table 3. FYs 2005-2007 C-130 Aircraft Reported Deferred Maintenance (millions)
  Commodity          FY 2005          FY 2006          FY 2007         Total
Aircraft              $20.97            $1.00           $8.91         $30.88
Aircraft PDM           7.55             13.42           31.02          51.99
Engine                 16.89            12.77           19.39          49.05
                                              *
Software               17.85           (14.44)           0.06           3.47
Storage                0.04              0.00            0.02          0.06
 Total                $63.30            $12.75          $59.40        $135.45
Note: When we conducted the site visits, the Air Force was unable to provide the actual deferred
maintenance figures for FY 2008. On February 24, 2009, the Air Force reported this information to us;
however, we did not have time to validate the FY 2008 data with the Major Commands.
* For FY 2006, the Air Force reported minus $14.44 million for software commodities because it applied
additional funding toward software commodities.

At the beginning of each fiscal year, Air Force Headquarters uses the scheduled depot
maintenance requirements established in the Maintenance Requirements Review Board
brochure and data call request from the Major Commands to develop the OP-30 Budget
Exhibit. The Board brochure includes tasks, approved hours, occurrence factors, and
number of aircraft scheduled to work per year by mission design series. The data call
request should contain the Major Command’s identified number of C-130 aircraft that
require maintenance and the related funding figures.




                                                  12
 Programmed Depot Maintenance Reporting Process
 For FYs 2005-2007, the Air Force did not validate the reported deferred maintenance at
 the end of each fiscal year. According to OMB Circular A-123, internal control is a
 process designed to provide reasonable assurance regarding the reliability of financial
 reporting. At the beginning of each fiscal year, the Air Force develops the OP-30 Budget
 Exhibit requirements based on the scheduled maintenance requirements and the data call
 request. According to Air Force personnel, at the end of the fiscal year, the Air Force
 may adjust the OP-30 requirements based on changes to the scheduled depot maintenance
 that was performed during the fiscal year. However, the Air Force did not follow
 established guidance to report accurate deferred maintenance at the end of the fiscal year.
 In addition, the Air Force did not establish quality assurance procedures to verify the
 deferred maintenance reported at the end of the fiscal year.

 For example, in FYs 2005-2007, the Air Force incorrectly reported deferred maintenance
 in the RSI of the financial statements for 15 of 27 C-130 aircraft that belonged to
 Air National Guard (ANG), Air Mobility Command (AMC), Air Education and Training
 Command (AETC), and Air Force Reserve Command (AFRC). Table 4 shows the 15
 C-130 aircraft that the Commands incorrectly reported as having deferred maintenance.

      Table 4. Incorrectly Reported Deferred Maintenance for FYs 2005-2007
 FY     Major        Total     Received     Planned    Inconsistently     Total
      Command Reported           PDM      Retirement     Reported      Incorrectly
                                                                        Reported
2005 ANG                5          1           0             0              1
      AMC               1          0           0             0              0
2006 AMC                4          0           2             0              2
      AETC              1          1           0             0              1
      ANG               4          0           0             1              1
2007 AMC                9          6           2             0              8
      AFRC              3          0           2             0              2
Total                  27          8           6             1             15

 We identified the following inconsistencies based on data provided by the Major
 Commands:

       Of 15 C-130 aircraft incorrectly reported, 8 received their PDM during the
        fiscal year they were reported as having deferred maintenance. For example, the
        Air Force reported an AMC C-130 aircraft as having deferred maintenance in
        FY 2007. However, the C-130 aircraft’s PDM documentation shows that it
        arrived at Ogden ALC on March 28, 2007, and began PDM work on
        March 29, 2007. Because the C-130 aircraft began receiving maintenance within
        the scheduled fiscal year, the aircraft should not have been reported as deferred
        maintenance.


                                             13
      Of 15 C-130 aircraft incorrectly reported, 6 were retired and reported as having
       deferred maintenance. The Air Force did not exclude the C-130 aircraft from the
       amount of deferred maintenance reported. For example, in FY 2007, the
       Air Force reported an AFRC C-130 aircraft as having deferred maintenance.
       However, the Air Force retired it on January 18, 2007. Thus, the C-130 aircraft
       would not have had its PDM performed because the Air Force retired it.

      Of 15 C-130 aircraft incorrectly reported, the Air Force inconsistently reported
       1 ANG C-130 aircraft. According to personnel at the Office of Resource
       Integration, for FY 2006, maintenance for four ANG C-130 aircraft was reported
       as deferred. However, personnel at ANG stated that they only reported
       maintenance for three C-130 aircraft as deferred. In addition, personnel at the
       Office of Resource Integration and ANG could not provide supporting
       documentation to substantiate the numbers.

Reliable financial information is critical to reducing Government waste and balancing the
budget. The Air Force did not ensure that the deferred maintenance amounts reported in
the RSI of the financial statements were accurate. Because it did not follow established
guidance for deferring maintenance during FYs 2005-2007 and did not establish quality
assurance procedures to verify the deferred maintenance reported at the end of the
fiscal year, the Air Force inaccurately reported deferred maintenance for the
C-130 aircraft in the RSI of the financial statements for FYs 2005-2007. Although the
requirement to comply with SFFAS No. 6 became effective in FY 1998, the Air Force
did not have procedures to ensure compliance with SFFAS No. 6. Furthermore, a prior
DOD Inspector General (DOD IG) audit report titled “Financial Reporting of Deferred
Maintenance Information on Air Force Weapons Systems for FY 2002,” Report
No. D-2003-030, November 2002, recommended that the Air Force improve its deferred
maintenance reporting procedures. The Air Force should have validated the ending
deferred PDM for the C-130 aircraft by updating the changes identified by the Major
Commands.

Summary
The Air Force did not validate the C-130 aircraft reported deferred maintenance at the
end of each fiscal year. A prior DOD IG audit report recommended that the Air Force
improve its deferred maintenance reporting procedures. However, the Air Force did not
follow established guidance for validating the ending deferred maintenance, and it
reported deferred maintenance requirements that did not reflect the actual amount at
year-end. In addition, the Air Force did not implement quality assurance procedures to
validate the accuracy of the deferred maintenance amounts in the RSI of the financial
statements.

Because the Air Force did not follow established guidance, it could not ensure the
accurate reporting of deferred maintenance. As a result, the Air Force inaccurately
reported deferred maintenance for the C-130 aircraft in the RSI of the financial
statements for FYs 2005-2007. Therefore, DOD and Air Force management should not
use the information for making informed decisions.


                                           14
Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Director of Resource Integration, Deputy Chief of
Staff for Logistics, Installations and Mission Support enforce existing guidance and
perform procedures to update the reporting of deferred maintenance to reflect the
maintenance requirement changes identified by the Major Commands.

Management Comments
The Deputy Director of Resource Integration, Deputy Chief of Staff for Logistics,
Installations and Mission Support agreed with the recommendation. The Deputy Director
stated that the Air Force would review and update procedures as necessary to ensure the
Major Commands report updated deferred maintenance. The Air Force anticipates
completing the implementation of this recommendation by February 2010.

Our Response
The Deputy Director’s comments were responsive. We request the Deputy Director
provide us a copy of the procedures for updating the reporting of deferred maintenance to
reflect the maintenance requirement changes identified by the Major Commands.

B.2. We recommend that the Assistant Secretary of the Air Force for Financial
Management and Comptroller establish quality assurance procedures to verify the
accuracy and validity of deferred maintenance amounts reported in the Required
Supplementary Information of the financial statements.

Management Comments
The Deputy Director of Resource Integration, Deputy Chief of Staff for Logistics,
Installations and Mission Support agreed with the recommendation, stating that the
Assistant Secretary of the Air Force for Financial Management (SAF/FM) was working
to improve the accuracy and validity of deferred maintenance amounts reported in the
RSI in Air Force financial statements. Further, SAF/FM has started action to have the
Air Force Audit Agency periodically audit deferred maintenance and conduct reviews of
deferred maintenance financial reporting. In addition, SAF/FM subject matter experts are
to participate in actions to correct Air Force procedures for collecting and reporting
financial statement RSI. The Air Force anticipates completing the implementation of this
recommendation by February 2010.

Our Response
The Deputy Director’s comments were responsive, and no further comments are required.




                                           15
Appendix. Scope and Methodology
We conducted this performance audit from June 2008 through May 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We assessed the extent and causes of deferred maintenance on the Air Force C-130
aircraft used in support of operations in Southwest Asia. Specifically, we assessed the
AFMC procedures for reporting deferred maintenance on the C-130 aircraft. We focused
on maintenance deferred from October 1, 2004, through August 1, 2008. To perform the
audit, we reviewed applicable Federal, DOD, and Air Force guidance and interviewed
engineers, master schedulers, program managers, financial management personnel, and
contractor personnel at the Deputy Under Secretary of Defense for Logistics and Materiel
Readiness; Headquarters U.S. Air Force, AFRC, and AMC; Warner Robins and Ogden
ALCs; and the C-130 System Program Office. We conducted the interviews from July
25, 2008, to November 12, 2008. In addition, we examined the OP-30 Budget Exhibit,
the C-130 Aircraft PDM Schedule, and C-130 aircraft records prepared by four Major
Commands.

For our universe, we requested OP-30 information that supports the deferred maintenance
reported for the C-130 aircraft in the RSI of the financial statements during FYs 2005-
2008. We received OP-30 information and actual figures for FYs 2005-2008. In
addition, we obtained a copy of the C-130 Aircraft PDM Schedule for FYs 2005-2013,
dated August 1, 2008. We used the C-130 aircraft PDM schedule to analyze 311 aircraft
to determine whether these aircraft received their PDM within the PDM cycle and to
select a non-statistical sample of 34 C-130 aircraft to determine whether all of the
scheduled PDM tasks were performed.

Use of Computer-Processed Data
To achieve the audit objective, we used data that originated in Acrobat Portable
Document Format, Microsoft Excel, AIRCAT, and PM/CCAT provided by the four
Major Commands: Air National Guard (ANG), Air Mobility Command (AMC), Air
Education and Training Command (AETC), and Air Force Reserve Command (AFRC).
To test the reliability of the sample data, we compared them to source documents such as
AFTO Form 95, inventory records, PDM extensions, Federal and DOD regulations, and
Air Force instructions. The assessment indicated that the data were sufficiently reliable
to meet the audit objective.

Prior Coverage
During the last 7 years, DOD Inspector General has issued one report discussing the
budgeting and financial reporting of depot maintenance. Unrestricted DOD IG reports
can be accessed over the internet at http://www.dodig.mil/audit/reports.


                                           16
During the last 7 years, the Air Force Audit Agency has issued two reports discussing the
budgeting and financial reporting of depot maintenance. Air Force Audit Agency reports
can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

DOD IG
DOD IG report No. D-2003-030 “Financial Reporting of Deferred Maintenance
Information on Air Force Weapons System for FY 2002,” November 27, 2002

Air Force Audit Agency
Air Force Audit Agency Report No. F2006-0008-FC2000, “Follow-Up Audit - C-130
Aircraft Logistics Support,” June 21, 2006

Air Force Audit Agency Report No. F2003-0004-FC2000, “C-130 Aircraft Logistics
Support,” January 29, 2003




                                           17
Glossary
Air Force Materiel Command Form 202 “Nonconforming Technical Assistance
Request and Reply.” A maintenance activity uses this form to request technical
assistance from the responsible engineer or equipment specialist when published
technical data are not adequate. A maintenance activity also uses AFMC Form 202 to
request technical assistance in the event of parts or material shortages.

Air Force Technical Order Form 95 “Significant Historical Data Record.” The
Air Force uses the AFTO Form 95 to document and maintain a permanent history of
significant maintenance actions on end items of equipment.

Maintenance Requirements Review Board. The Board is the Air Force panel that
ensures all valid depot-level maintenance requirements are evaluated and scheduled to be
accomplished in the appropriate fiscal year.

OP-30 “Budget Exhibit Operations Depot Maintenance.” The OP-30 Budget Exhibit
accompanies the President’s Budget and is used as the basis for identifying and reporting
amounts in the National Defense Property, Plant, and Equipment Deferred Maintenance
table.

Programmed Depot Maintenance. Depot maintenance facilities inspect and correct
defects that require skills, equipment, or facilities not normally possessed by operating
locations.

Programmed Depot Maintenance Cycle. C-130 aircraft are scheduled for PDM on a
cyclic interval with the cycle time stated in months. The PDM interval is measured from
the output date of the last PDM to the input date of the next PDM due. A C-130 aircraft
is due PDM when the appropriate cycle time has been reached.

Programmed Depot Maintenance Extensions. To help meet operational requirements
or to smooth out depot workload, the System Program Director has authority to grant an
additional 90-day extension beyond the allowed 90-day variance for a total of up to
180 days past the PDM due date.

Required Supplementary Information. All Federal agencies are required to report
RSI. DOD must report deferred maintenance for property, plant, and equipment in the
RSI section of its annual financial statements.

Unprogrammed Depot-Level Maintenance. Unscheduled depot-level maintenance is
that which is not included in the fiscal year forecast and includes events such as
catastrophic damage to missile weapon systems, crash damage to aircraft, and abnormal
wear and tear of equipment.




                                            18
Department of the Air Force Comments




                  Click to add JPEG file




                                 19
Click to add JPEG file




               20
Click to add JPEG file




               21
22
